Page 2 – Charlene Frizzera


The State agency did not always claim reimbursement for services provided by the Hospital in
accordance with Federal and State laws and regulations or with the approved provisions of the
UCCP plan. Of the $8,312,198 in costs claimed for services provided to 134 patients, $564,361
was allowable. However, the State agency claimed $7,747,837 of unallowable costs for 127
patients, including:

   •   119 patients whose care was not covered under the Medicaid plan because they were
       between the ages of 21/22 and 65,

   •   43 patients whose costs were paid by other sources,

   •   27 patients who did not receive services on the dates claimed, and

   •   2 patients for whom the Hospital had submitted duplicate claims.

Some patients’ costs were unallowable for more than one of these reasons.

We recommend that the State agency refund to CMS the $7,747,837 in unallowable costs
claimed. Because the State’s authorization to obtain Federal reimbursement for hurricane-related
uncompensated care has ended, we are not making procedural recommendations.

In its comments on our draft report, the State agency disagreed with our findings and
recommendation. The State agency said that it intended that its expenditure authority under the
section 1115 demonstration project should be interpreted to include inpatient psychiatric services
for all Hospital patients, including those between ages 22 and 65. With respect to our findings
that the State agency claimed reimbursement for patients whose costs had been paid by other
sources, patients who did not receive services on the dates claimed, and patients for whom the
Hospital had submitted duplicate claims, the State agency said that it was reviewing those
claims.

Nothing in the State agency’s comments caused us to revise our findings or recommendation.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Gordon L. Sato, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414
or through e-mail at Gordon.Sato@oig.hhs.gov. Please refer to report number A-06-08-00023.


Attachment
Page 2 – Mr. Alan Levine


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF SOUTHEAST
   LOUISIANA HOSPITAL’S
    HURRICANE-RELATED
   UNCOMPENSATED CARE
          CLAIMS



                    Daniel R. Levinson
                     Inspector General

                        July 2009
                      A-06-08-00023
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

In response to Hurricane Katrina, section 6201 of the Deficit Reduction Act of 2005 authorized
Federal funding for the total costs of medically necessary uncompensated care furnished to
evacuees and affected individuals without other coverage in eligible States; i.e., States that
provided care to such individuals in accordance with section 1115 projects.

Pursuant to section 1115 of the Social Security Act, the Centers for Medicare & Medicaid
Services (CMS) approved Louisiana’s request for demonstration authority related to Hurricane
Katrina. CMS also approved an uncompensated care pool to reimburse providers for medically
necessary services provided to Hurricane Katrina evacuees and affected individuals without
other coverage. In approving the State’s uncompensated care pool plan (the UCCP plan), CMS
authorized reimbursement for uncompensated care provided to Katrina evacuees and affected
individuals from August 24, 2005, through January 31, 2006. The pool was 100 percent
federally funded.

Before CMS approved the UCCP plan, Louisiana published an emergency regulation stating that
reimbursement from the uncompensated care pool was available for specified services covered
under the State Medicaid plan. In approving the UCCP plan, CMS specified that payment would
be made in accordance with both the Medicaid plan and the UCCP plan and that expenditures
above those limits were not reimbursable. The Medicaid plan limits inpatient psychiatric
coverage for patients in institutions for mental diseases to those who are under age 21, and in
some cases under age 22, as well as to those who are age 65 or older.

As of December 31, 2006, the Louisiana Department of Health and Hospitals (the State agency)
reported $123.2 million in uncompensated care reimbursement to 834 health care providers.
Southeast Louisiana Hospital (the Hospital), an institution for mental diseases, received
$8.3 million of this reimbursement.

OBJECTIVE

Our objective was to determine whether the State agency claimed reimbursement for services
provided by the Hospital in accordance with Federal and State laws and regulations and with the
approved provisions of the UCCP plan.

SUMMARY OF FINDINGS

The State agency did not always claim reimbursement for services provided by the Hospital in
accordance with Federal and State laws and regulations or with the approved provisions of the
UCCP plan. Of the $8,312,198 in costs claimed for services provided to 134 patients, $564,361
was allowable. However, the State agency claimed $7,747,837 of unallowable costs for 127
patients, including:




                                               i
   •   119 patients whose care was not covered under the Medicaid plan because they were
       between the ages of 21/22 and 65,

   •   43 patients whose costs were paid by other sources,

   •   27 patients who did not receive services on the dates claimed, and

   •   2 patients for whom the State agency had submitted duplicate claims.

Some patients’ costs were unallowable for more than one of these reasons.

The State agency claimed the unallowable costs because it (1) did not have procedures to ensure
that it claimed uncompensated care costs only for services covered under the Medicaid plan,
(2) did not instruct the Hospital to analyze its uncompensated care claims to determine whether
payments had been received from other sources, (3) relied on the Hospital to verify that the costs
claimed were based on actual inpatient days, and (4) did not have procedures to ensure that it
identified all duplicate claims.

RECOMMENDATION

We recommend that the State agency refund to CMS the $7,747,837 in unallowable costs
claimed. Because the State’s authorization to obtain Federal reimbursement for hurricane-related
uncompensated care has ended, we are not making procedural recommendations.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency disagreed with our findings and
recommendation. The State agency said that it intended that its expenditure authority under the
section 1115 demonstration project should be interpreted to include inpatient psychiatric services
for all Hospital patients, including those between ages 22 and 65. With respect to our findings
that the State agency claimed reimbursement for patients whose costs had been paid by other
sources, patients who did not receive services on the dates claimed, and patients for whom the
Hospital had submitted duplicate claims, the State agency said that it was reviewing those
claims.

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s comments caused us to revise our findings or recommendation.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Section 1115 Hurricane-Related Demonstration Projects ....................................1
              Louisiana’s Approved Uncompensated Care Pool Plan .......................................1
              Reimbursement to Institutions for Mental Diseases .............................................2
              Southeast Louisiana Hospital................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................3
               Objective ...............................................................................................................3
               Scope ...................................................................................................................3
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATION................................................................................4

          UNALLOWABLE COSTS ..............................................................................................5
              Services Not Covered Under the Medicaid Plan ..................................................5
              Reimbursement Received From Other Sources....................................................5
              Services Not Received ..........................................................................................6
              Duplicate Claims Submitted .................................................................................6

          RECOMMENDATION ....................................................................................................6

          STATE AGENCY COMMENTS.....................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................7

APPENDIXES

          A – REASONS FOR UNALLOWABLE COSTS FOR EACH PATIENT

          B – STATE AGENCY COMMENTS




                                                                   iii
                                      INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1115 Hurricane-Related Demonstration Projects

Section 1115 of the Act permits the Secretary to authorize demonstration projects to promote the
objectives of the Medicaid program. Pursuant to section 1115, CMS may waive compliance with
any of the requirements of section 1902 of the Act and provide Federal matching funds for
demonstration expenditures that would not otherwise be included as expenditures under the State
Medicaid plan.

In response to Hurricane Katrina, CMS announced that States could apply for section 1115
demonstration projects to ensure the continuity of health care services for hurricane victims. A
State with an approved hurricane-related section 1115 demonstration project was eligible under
section 6201 of the Deficit Reduction Act of 2005 for Federal payment of the total costs of
uncompensated care incurred for medically necessary services and supplies furnished to
Hurricane Katrina evacuees and affected individuals who did not have other coverage for such
assistance.

Louisiana’s Approved Uncompensated Care Pool Plan

In a November 10, 2005, letter, CMS approved Louisiana’s request for section 1115
demonstration authority and for an uncompensated care pool to reimburse providers for
medically necessary services and supplies for Hurricane Katrina evacuees who did not have
insurance coverage or other available options. In a March 24, 2006, letter, CMS approved
Louisiana’s uncompensated care pool plan (the UCCP plan) and authorized reimbursement from
the pool for services provided to Katrina evacuees and affected individuals from August 24,
2005, through January 31, 2006. The UCCP plan proposed to reimburse providers that incurred
uncompensated care costs for which there was no other source of payment. In the approval
letter, CMS specified that payment would be made in accordance with both the State Medicaid
plan and the UCCP plan and that expenditures above those limits were not reimbursable.

Louisiana’s UCCP plan listed the broad categories of services that would be covered through the
uncompensated care pool, including inpatient psychiatric services, and stated that payments
would be based on the Louisiana Medicaid rate. Only Medicaid providers were eligible for
reimbursement. The UCCP plan also provided that all claims would be reviewed before any




                                                1
payment and that applicable Federal and State laws and regulations would govern the
prepayment investigation.

On March 20, 2006, before CMS approved the UCCP plan, the State published an emergency
regulation to govern reimbursement from the uncompensated care pool. 1 Pursuant to the
regulation, reimbursement was available for specified services covered under the State Medicaid
plan, including inpatient psychiatric services. The State later published a final rule affirming that
coverage through the uncompensated care pool was available for services covered under the
Medicaid plan. 2

The Louisiana Department of Health and Hospitals (the State agency) administered the
uncompensated care pool, which was 100 percent federally funded. As of December 31, 2006,
the State agency reported $123.2 million in uncompensated care reimbursement to 834 health
care providers, including State-operated inpatient psychiatric facilities. Southeast Louisiana
Hospital (the Hospital), located in Mandeville, received $8.3 million of this reimbursement based
on claims that the State agency submitted to CMS.

Reimbursement to Institutions for Mental Diseases

The Act provides that Federal reimbursement is not available under the State Medicaid plan for
services furnished to certain patients in institutions for mental diseases (IMD). Clause (B) in the
paragraph following section 1905(a)(28) of the Act excludes from the definition of medical
assistance “any such payments with respect to care or services for any individual who has not
attained 65 years of age and who is a patient in an institution for mental diseases.” However, the
State may opt to cover inpatient psychiatric hospital services for individuals under age 21.
Pursuant to section 1905(h) of the Act, a State that elects to cover these services for individuals
under age 21 may, in some cases, cover individuals up to age 22. Louisiana’s approved
Medicaid plan includes such coverage. Therefore, Federal reimbursement to the State is not
available for services furnished to IMD patients between the ages of 21/22 and 65 under the
Medicaid State plan.

Federal regulations (42 CFR § 435.1010) define an IMD as a hospital, nursing facility, or other
institution of more than 16 beds that is primarily engaged in providing diagnosis, treatment, or
care of persons with mental diseases.

Southeast Louisiana Hospital

The Hospital is a State-operated inpatient psychiatric treatment facility that provides services to
adults, adolescents, and children. The Hospital meets the definition of an IMD.

During our audit period, the Hospital received reimbursement of $581.11 per day for inpatient
psychiatric services. Before and after the dates of service covered by the UCCP plan, costs


1
    32 La. Reg. 377 (March 2006).
2
    32 La. Reg. 1902 (October 2006) (to be codified at La. Admin. Code 50: XXII, chapters 41–53).


                                                          2
incurred by the Hospital for treating patients who had no other source of payment were paid with
State funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed reimbursement for services
provided by the Hospital in accordance with Federal and State laws and regulations and with the
approved provisions of the UCCP plan.

Scope

Our audit covered the $8.3 million in uncompensated care costs that the State agency reimbursed
the Hospital and claimed for Federal reimbursement as of December 31, 2006. The Hospital
incurred these costs for services provided to Hurricane Katrina evacuees and affected individuals
during the period August 24, 2005, through January 31, 2006.

We did not review the State agency’s or the Hospital’s overall internal control structure. We
limited our review to obtaining an understanding of the policies and procedures used to identify
and claim uncompensated care costs, account for billable inpatient days, and collect payments
for patients who had another source of income.

We conducted our fieldwork at the Hospital in Mandeville, Louisiana, and at the State agency in
Baton Rouge, Louisiana.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and State laws and regulations, the approved State Medicaid
        plan, CMS approval letters, the approved section 1115 demonstration, and the approved
        UCCP plan;

   •    interviewed State agency and Hospital officials to (1) gain an understanding of claim
        procedures and supporting documentation and (2) determine the source of payment for
        the costs incurred for treating patients before and after the dates of service claimed under
        the UCCP plan;

   •    obtained the State agency’s database of uncompensated care claims paid to providers as
        of December 31, 2006, which totaled $123.2 million;

   •    verified that all paid uncompensated care claims were included on the “Quarterly
        Medicaid Statement of Expenditures for the Medical Assistance Program,” Form CMS-
        64, for our audit period;



                                                  3
       •   extracted from the State agency’s database claims totaling $8,312,198 paid to the
           Hospital for treating 134 patients during the period August 24, 2005, through January 31,
           2006; and

       •   reviewed the claims and supporting documentation (patient financial records) to verify,
           for each of the 134 patients, that:

                o the services claimed were covered under the Medicaid plan,

                o the patient did not have another source of payment available for the services
                  under Medicare, Medicaid, private insurance, or a State-funded health insurance
                  program,

                o the patient received services on the dates of service claimed and the claims were
                  for eligible dates of service,

                o the amount claimed for the patient was accurately calculated, and

                o the patient’s home address was within one of the individual assistance designation
                  counties listed in an attachment to the UCCP plan.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    FINDINGS AND RECOMMENDATION

The State agency did not always claim reimbursement for services provided by the Hospital in
accordance with Federal and State laws and regulations or with the approved provisions of the
UCCP plan. Of the $8,312,198 in costs claimed for services provided to the 134 patients,
$564,361 was allowable. However, the State agency claimed $7,747,837 of unallowable costs
for 127 patients, including:

       •   119 patients whose care was not covered under the Medicaid plan because they were
           between the ages of 21/22 and 65,

       •   43 patients whose costs were paid by other sources,

       •   27 patients who did not receive services on the dates claimed, and

       •   2 patients for whom the State agency had submitted duplicate claims. 3


3
    Some patients’ costs were unallowable for more than one reason. We questioned these costs only once.


                                                          4
Appendix A shows a breakdown, by patient, of the reasons for the unallowable costs.

The State agency claimed the unallowable costs because it (1) did not have procedures to ensure
that it claimed uncompensated care costs only for services covered under the Medicaid plan,
(2) did not instruct the Hospital to analyze its uncompensated care claims to determine whether
payments had been received from other sources, (3) relied on the Hospital to verify that the costs
claimed were based on actual inpatient days, and (4) did not have procedures to ensure that it
identified all duplicate claims.

UNALLOWABLE COSTS

Services Not Covered Under the Medicaid Plan

In approving the UCCP plan, CMS specified that payment would be in accordance with both the
Medicaid plan and the UCCP plan and that expenditures above those limits were not
reimbursable. Pursuant to 32 La. Reg. 1902, reimbursement from the uncompensated care pool
was available for inpatient psychiatric services covered under the Medicaid plan. The Medicaid
plan limits IMD inpatient psychiatric coverage to individuals who are (1) under age 21, or under
age 22 if the individual was receiving such services immediately preceding the date on which he
or she reached age 22, or (2) age 65 or older.

The State agency inappropriately claimed costs for 119 patients age 22 through 64 because it did
not have procedures to ensure that it claimed uncompensated care costs only for services covered
under the Medicaid plan.

Reimbursement Received From Other Sources

Section 1.B of the UCCP plan limited reimbursement to services provided to evacuees and
affected individuals for whom there were no other sources of payment. Section 1.D of the UCCP
plan stated that an attestation would be required from providers. The attestation form, which was
signed by the acting assistant secretary of the State agency’s Office of Mental Health, stated: “I
certify that no payment, either in full or in part, has been received from another entity on the
above listed claims.”

The State agency inappropriately claimed costs for 43 patients for whom the Hospital had
received payments from other sources. Specifically, the Hospital had received Medicare
payments for 34 patients, Medicaid payments for 13 patients’ Medicare coinsurance payments,
private insurance payments for 2 patients, and payments from 33 patients. 4 The Hospital did not
offset its uncompensated care claims by the amounts of these payments.

The State agency did not instruct the Hospital to analyze its uncompensated care claims to
determine whether payments had been received from other sources. The Hospital also was not
aware that it should have offset the claims by payments received from other sources.



4
    For 29 patients, the Hospital received reimbursement from more than one other source.


                                                           5
Services Not Received

Section I.C of the UCCP plan stated: “Payments will be made only for covered services provided
to eligible populations . . . .” Section 1.D of the UCCP plan stated that an attestation would be
required from providers. The attestation form, which was signed by the acting assistant secretary
of the State agency’s Office of Mental Health, stated: “I certify that on this invoice . . . the goods,
services and/or supplies . . . were actually provided to the above listed individual . . . .”

The State agency inappropriately claimed costs for 27 patients who did not actually receive the
services claimed. These patients were away from the Hospital on overnight passes for a total of
310 days claimed. According to State agency officials, if a patient was not in his or her bed at
midnight, the Hospital should not have been reimbursed for that day. 5

To ensure the validity of uncompensated care costs claimed on behalf of the Hospital, the State
agency provided the Hospital with a list of potentially eligible patients and their potential dates
of service and instructed the Hospital to perform random checks to verify the accuracy of the list.
The Hospital confirmed that the individuals on the list were patients during the specified periods
of service. However, the Hospital did not check patient records for days when patients were
away on overnight passes and made no adjustments to the State agency’s list to account for those
days. As a result, the State agency claimed costs for services that were not received.

Duplicate Claims Submitted

In the March 24, 2006, letter approving the UCCP plan, CMS specified that the approved plan
included the “minimum methodologies” that the State must use to ensure program integrity,
specifically including procedures to identify duplicate claims.

The State agency did not have procedures to ensure that it identified all duplicate claims. The
State agency inappropriately claimed costs for two patients for whom the Hospital had submitted
duplicate claims.

RECOMMENDATION

We recommend that the State agency refund to CMS the $7,747,837 in unallowable costs
claimed. Because the State’s authorization to obtain Federal reimbursement for hurricane-related
uncompensated care has ended, we are not making procedural recommendations.




5
 In administering the Medicaid program, the State agency followed Medicare guidance regarding billable patient
days for inpatient psychiatric facilities (IPF) under the IPF prospective payment system. According to CMS’s
“Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 3, section 190.10.7, an IPF is to account for
interrupted stays by counting from the day of discharge (e.g., the day that the patient leaves the facility on a pass)
through the last day that the patient was not present in the facility at midnight. The IPF should not be reimbursed for
those days.


                                                          6
STATE AGENCY COMMENTS

In its comments on our draft report, the State agency disagreed with our findings and
recommendation. The State agency said that, under its section 1115 demonstration project, CMS
permitted Louisiana to claim Federal reimbursement for “all expenditures for medical services
provided to individuals who are receiving inpatient psychiatric services under the demonstration
project in freestanding facilities.” The State agency stated that it intended that this expenditure
authority should be interpreted to include inpatient psychiatric services for all Hospital patients,
including those between ages 22 and 65.

The State agency said that it had followed the processes outlined in its approved section 1115
demonstration project and in its approved UCCP plan and that it had clear procedures to ensure
that it claimed uncompensated care costs only for services covered under the State Medicaid
plan. The State agency explained that the benefits contained in its approved section 1115
demonstration project were broadly defined as those of the State Medicaid plan and included
inpatient psychiatric services. The State agency said that it had intended to get 100-percent
Federal funds for the psychiatric services provided at the Hospital. Furthermore, the State
agency said that CMS had stated that the uncompensated care pool could be used to provide
reimbursement for benefits not covered under Title XIX in the State.

With respect to our findings that the State agency claimed reimbursement for patients whose
costs had been paid by other sources, patients who did not receive services on the dates claimed,
and patients for whom the Hospital had submitted duplicate claims, the State agency said that it
was reviewing those claims.

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s comments caused us to revise our findings or recommendation.
The State agency furnished no evidence to support its contention about the intent of the
demonstration provision and no evidence that Hospital patients were included in discussions with
CMS. Furthermore, the State agency’s intention is not evident in the broad wording of the
expenditure authority. Thus, we have no basis to conclude that CMS approved Federal
reimbursement for services provided to Hospital patients between ages 22 and 65.

As to the State agency’s assertion that CMS had stated that the uncompensated care pool could
be used to provide reimbursement for benefits not covered under Title XIX in the State, the
State’s own emergency rule, issued on March 20, 2006, limited uncompensated care pool
coverage to benefits under the State Medicaid plan. The State’s rule specified that
“reimbursement is available under the UCC [uncompensated care] pool for the following
services covered under the Louisiana Medicaid State Plan.” The covered services included
“inpatient psychiatric services (free-standing psychiatric hospitals and distinct part psychiatric
units).” Like other covered services listed in the State’s emergency rule, inpatient psychiatric
services furnished by psychiatric hospitals and distinct-part psychiatric units are covered under




                                                 7
Louisiana’s Medicaid State plan. However these services are covered under the State plan only
for individuals under age 21/22 and age 65 or older.

In addition, the State agency provided no evidence that it did not claim reimbursement for
patients whose costs had been paid by other sources, patients who did not receive services on the
dates claimed, or patients for whom the Hospital had submitted duplicate claims.




                                                8
APPENDIXES
                                                                      APPENDIX A
                                                                        Page 1 of 4

 REASONS FOR UNALLOWABLE COSTS FOR EACH PATIENT


   1   The services were not covered under the State Medicaid plan.
   2   Reimbursement was received from other sources.
   3   The services were not received.
   4   Duplicate claims were submitted.


Office of Inspector General Review Determinations on the 134 Patients
                                                    No. of
         Patient     1       2      3      4      Deficiencies
            1        X       X                         2
            2        X                                 1
            3        X                                 1
            4        X                                 1
            5        X                                 1
            6        X       X                         2
            7        X       X      X                  3
            8        X                                 1
            9        X              X                  2
           10        X       X                         2
           11        X                                 1
           12        X                                 1
           13                X                         1
           14                                          0
           15        X                                 1
           16        X                                 1
           17        X                                 1
           18        X       X                         2
           19        X       X                         2
           20        X                                 1
           21                       X                  1
           22        X       X                         2
           23                       X                  1
           24        X                                 1
           25        X                                 1
           26                                          0
           27        X       X                         2
           28        X       X                         2
           29        X                                 1
           30        X       X                         2
           31        X       X                         2
           32        X                                 1
           33        X                                 1
                                         APPENDIX A
                                           Page 2 of 4

                            No. of
Patient   1   2   3   4   Deficiencies
  34      X   X   X            3
  35      X       X            2
  36      X   X                2
  37      X                    1
  38      X   X   X            3
  39      X       X            2
  40      X                    1
  41      X                    1
  42      X   X                2
  43      X           X        2
  44      X       X            2
  45      X                    1
  46      X                    1
  47              X            1
  48      X   X                2
  49      X                    1
  50      X                    1
  51      X                    1
  52      X                    1
  53              X            1
  54      X                    1
  55      X                    1
  56      X                    1
  57      X       X            2
  58      X   X                2
  59      X   X                2
  60      X           X        2
  61      X   X                2
  62      X   X                2
  63      X   X                2
  64      X                    1
  65      X                    1
  66      X                    1
  67      X                    1
  68                           0
  69      X   X   X            3
  70      X                    1
  71                           0
  72      X                    1
  73      X                    1
  74      X                    1
  75      X   X                2
  76      X   X                2
                                         APPENDIX A
                                           Page 3 of 4

                            No. of
Patient   1   2   3   4   Deficiencies
  77      X   X                2
  78      X                    1
  79                           0
  80      X                    1
  81      X       X            2
  82      X                    1
  83      X   X                2
  84      X   X                2
  85      X                    1
  86      X   X                2
  87      X                    1
  88      X                    1
  89      X                    1
  90      X                    1
  91      X   X                2
  92      X       X            2
  93      X   X   X            3
  94      X                    1
  95      X                    1
  96      X                    1
  97      X   X                2
  98      X                    1
  99      X       X            2
 100      X                    1
 101      X   X                2
 102      X   X                2
 103              X            1
 104                           0
 105      X   X   X            3
 106      X                    1
 107      X       X            2
 108          X   X            2
 109      X       X            2
 110      X                    1
 111      X   X                2
 112      X                    1
 113      X                    1
 114      X                    1
 115      X                    1
 116      X   X   X            3
 117      X   X                2
 118      X                    1
 119      X       X            2
                                             APPENDIX A
                                               Page 4 of 4

                                No. of
Patient   1     2    3    4   Deficiencies
  120     X                        1
  121           X    X             2
  122     X     X                  2
  123     X          X             2
  124     X                        1
  125     X                        1
  126     X                        1
  127     X                        1
  128     X                        1
  129                              0
  130      X    X                  2
  131      X                       1
  132      X    X                  2
  133      X                       1
  134      X         X             2
 Total    119   43   27   2       191
APPENDIX B
  Page 1 of 4
APPENDIX B
  Page 2 of 4
APPENDIX B
  Page 3 of 4
APPENDIX B
  Page 4 of 4
